TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Onboarding Process Has Improved,
                    but Additional Steps Should Be Taken to
                       Ensure Employees Have the Tools,
                        Resources, and Knowledge to Be
                           Successful and Productive



                                          August 6, 2012

                              Reference Number: 2012-10-091




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


THE ONBOARDING PROCESS HAS                            reported positive experiences such as the
IMPROVED, BUT ADDITIONAL STEPS                        handling of administrative issues and being
SHOULD BE TAKEN TO ENSURE                             introduced to the IRS’s mission and their new
EMPLOYEES HAVE THE TOOLS,                             job.
RESOURCES, AND KNOWLEDGE TO BE                        While the IRS has taken steps to make the new
SUCCESSFUL AND PRODUCTIVE                             employee experience positive, managers that
                                                      TIGTA interviewed were not following best
                                                      practices identified in the comprehensive
Highlights                                            guidance the IRS developed for them. As a
                                                      result, some best practices that would help new
Final Report issued on August 6, 2012                 employees feel welcome and help them become
                                                      more productive were not fully implemented.
Highlights of Reference Number: 2012-10-091           For example, one-quarter of the new employees
to the Internal Revenue Service Deputy                TIGTA contacted were not assigned a coach or
Commissioner for Operations Support and the           mentor when they arrived, and approximately
Deputy Commissioner for Services and                  29 percent stated that the onboarding
Enforcement.                                          experience did not accelerate their ability to
                                                      reach full productivity.
IMPACT ON TAXPAYERS
                                                      To improve, the IRS must obtain feedback from
Onboarding is a year-long process that                new employees. While the IRS and the
integrates new employees into the workforce.          Department of the Treasury use questionnaires
The IRS has improved its process for                  to obtain input from new employees, these
onboarding new employees and some                     questionnaires do not address a new
processes are working well. However, the new          employee’s entire first year, and existing
employee experience is not always positive, and       measures would not help the IRS identify
the process for making improvements needs to          specific areas of concern. Also, the IRS does
be more coordinated. Improving processes              not have a documented onboarding strategy that
would reduce the substantial cost of replacing        would help it tie together actions being taken to
employees who leave the IRS and would help            study and improve the new employee
the IRS meet its mission by ensuring employees        experience.
quickly become productive.
                                                      WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT
                                                      TIGTA recommended that the IRS Human
This review was requested by the IRS and              Capital Officer develop an agency-wide
addresses the major management challenge of           onboarding strategy. The strategy should
Human Capital. The overall objective was to           include components such as a checklist with
determine whether the IRS’s onboarding                step-by-step guidance that should be completed
program was appropriately integrating new             during the onboarding process and require
employees for positions in mission-critical           managers to complete the checklist, a process
occupations into the IRS workforce to become          to collect feedback from managers on how the
productive employees as quickly as possible.          onboarding process could be improved, and
                                                      additional measures and analyses to evaluate
WHAT TIGTA FOUND                                      the onboarding process.
The IRS would like new employees to have a            IRS management agreed with the
consistently positive experience during their first   recommendation and responded that efforts are
year with the IRS. To help managers make this         underway to convene a team to develop a
a reality, the IRS developed guidance (a toolkit      corporate IRS onboarding strategy.
and website) that incorporates industry best
practices for effectively integrating new
employees into the IRS. Also, recent hires have
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 August 6, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                        Michael E. McKenney
                              Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Onboarding Process Has Improved, but
                              Additional Steps Should Be Taken to Ensure Employees Have the
                              Tools, Resources, and Knowledge to Be Successful and Productive
                              (Audit # 201110029)

 This report presents the results of our review to determine whether the Internal Revenue
 Service’s (IRS) onboarding program was appropriately integrating new employees for positions
 in mission-critical occupations1 into the IRS workforce to become productive employees as
 quickly as possible. This review was requested by the IRS and is included in our Fiscal
 Year 2012 Annual Audit Plan. This review addresses the major management challenge of
 Human Capital.
 Management’s complete response to the draft report is included in Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have any questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.




 1
  Mission-critical occupations are those few occupations that comprise the unique core competencies of the IRS and
 have the greatest direct impact on the agency’s ability to meet its mission.
                        The Onboarding Process Has Improved, but Additional Steps
                          Should Be Taken to Ensure Employees Have the Tools,
                        Resources, and Knowledge to Be Successful and Productive




                                             Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Human Capital Office Has Developed Comprehensive
          Onboarding Guidance and Several Key Onboarding
          Processes Are Working Well ........................................................................ Page 3
          Processes to Enhance the Onboarding Experience Are
          Either Not Being Consistently Followed or Need
          Improvement ................................................................................................. Page 4
                    Recommendation 1:.......................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Analyses of Recently Hired Employee Responses to a
          Treasury Inspector General for Tax Administration Questionnaire ............. Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 27
      The Onboarding Process Has Improved, but Additional Steps
        Should Be Taken to Ensure Employees Have the Tools,
      Resources, and Knowledge to Be Successful and Productive




                    Abbreviations

HCO           Human Capital Office
IRS           Internal Revenue Service
                     The Onboarding Process Has Improved, but Additional Steps
                       Should Be Taken to Ensure Employees Have the Tools,
                     Resources, and Knowledge to Be Successful and Productive




                                            Background

The Internal Revenue Service (IRS), like many Federal agencies, faces a loss of managers and
technical employees that could affect its ability to effectively accomplish its mission. For
example, to fill projected shortages in managers, the IRS has stated that it must recruit one
manager a day for the next 10 years. The IRS’s ability to replace this loss of skills and
experience with new talent will depend on its capability to efficiently and effectively recruit,
hire, and retain high-performing employees.
A key component of the IRS’s process to recruit,
                                                                        Onboarding is the process of
hire, and retain high-performing employees is its                     integrating and acculturating new
onboarding process. Onboarding is a year-long                             employees into the IRS and
process that integrates new employees into the                          providing them with the tools,
workforce. It includes manager preparation for a                         resources, and knowledge to
new employee’s arrival, a comprehensive orientation,                 become successful and productive.
and programs throughout the first year of
employment to build engagement.1
The Partnership for Public Service2 recently
examined how the Federal Government fared with its
process for onboarding new employees and published
a report3 detailing its findings. Overall, the
Partnership noted that no component of human
capital management has been more overlooked by the Federal Government than the process of
integrating new employees into their work environments. Once talent has been recruited and
hired, onboarding serves as a critical second step to ensure that new employees are connected
with an agency in a manner that effectively contributes to an agency’s mission as quickly as
possible.
The Partnership report also indicated that effective onboarding programs can improve employee
retention by 25 percent. This can reduce the high cost of turnover that, by some estimates, costs
organizations 30 to 50 percent of the annual salary of entry-level employees, 150 percent for
mid-level employees, and up to 400 percent for specialized, high-level employees. When a new


1
  Employee engagement refers to the degree of employee motivation, commitment, and involvement in the mission
of the IRS.
2
  The Partnership for Public Service is a nonpartisan, nonprofit organization that works to revitalize the Federal
Government by inspiring a new generation to serve and by transforming the way Government works.
3
  Partnership for Public Service, Getting On Board: A Model for Integrating and Engaging New Employees
(May 2008).
                                                                                                           Page 1
                    The Onboarding Process Has Improved, but Additional Steps
                      Should Be Taken to Ensure Employees Have the Tools,
                    Resources, and Knowledge to Be Successful and Productive



employee quits, it may take more than a year to recruit and train a replacement, which creates
productivity losses and leads other employees to become demoralized and consider leaving as
well. To address the challenges facing Federal agencies, the Partnership developed a model for
strategic onboarding to serve as an example for agency reform.
                             Figure 1: Strategic Onboarding Model




Source: The Partnership for Public Service, “Getting On Board: A Model for Integrating and Engaging New
Employees,” May 2008.

This review was performed at the IRS Human Capital Office (HCO) National Headquarters in
Washington, D.C., during the period October 2011 through April 2012. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                                     Page 2
                    The Onboarding Process Has Improved, but Additional Steps
                      Should Be Taken to Ensure Employees Have the Tools,
                    Resources, and Knowledge to Be Successful and Productive




                                    Results of Review

The Human Capital Office Has Developed Comprehensive Onboarding
Guidance and Several Key Onboarding Processes Are Working Well
The IRS would like new employees to have a consistently positive experience during their first
year with the IRS. To help managers make this a reality, the IRS developed guidance (a toolkit
and website) that incorporates industry best practices for effectively integrating new employees
into the IRS. Recent hires we surveyed reported positive experiences with certain processes,
such as the handling of administrative issues and being introduced to the IRS’s mission and their
new job.
The Office of Personnel Management4 and the                          The IRS HCO developed a
                                                                    comprehensive onboarding
Partnership for Public Service5 have both published                   toolkit to help managers
reports documenting best practices for Federal                      successfully integrate new
agencies to use when hiring and onboarding                               employees into the
employees. We compared these best practices with                           IRS workforce.
guidance available to IRS managers and determined
that the IRS HCO took positive steps to include many
of the best practices into the IRS’s onboarding
program. For example, the IRS HCO developed an
onboarding toolkit for IRS managers to use as a guide
for successfully onboarding new employees, and the
suggested processes in the toolkit were generally
consistent with best practices.
As part of the guidance, the IRS HCO also developed a website with helpful links for managers
that are hiring new employees. For example, the website contains a section with a workflow
process map that assists managers by outlining the processes and timelines necessary to
successfully bring a new employee on board. The website also contains a section explaining
how managers can request computers and other information technology equipment so that
employees will have the tools needed on their first day of work.
To determine how well best practices were being followed, we sent a questionnaire to
402 recently hired IRS employees and received responses from 302 employees.6 Based on the

4
  Office of Personnel Management, End-to-End Hiring Initiative (Sept. 2008).
5
  Partnership for Public Service, Getting On Board: A Model for Integrating and Engaging New Employees
(May 2008).
6
  Appendix IV, Figure 2, provides a detailed breakdown of the responses to our questionnaire.
                                                                                                         Page 3
                   The Onboarding Process Has Improved, but Additional Steps
                     Should Be Taken to Ensure Employees Have the Tools,
                   Resources, and Knowledge to Be Successful and Productive



responses, the IRS has done well in implementing several critical onboarding best practices that
are necessary to appropriately integrate new staff into the IRS workforce and help new
employees effectively contribute to the mission as quickly as possible. We categorized these
best practices into three general areas, as shown in Figure 2.
          Figure 2: Categories of Onboarding Best Practices Where the
     IRS Consistently Performed Well According to Recently Hired Employees

    Onboarding Best Practice Categories              Best Practices
    Taking Care of Administrative Issues                Providing reporting instructions prior to
                                                         the first day of work.
                                                        Assigning a workspace.
                                                        Explaining benefits, time reporting,
                                                         travel policies, and security policies.
    Introducing Employees to Their Work                 Describing the IRS mission.
                                                        Providing initial training.
                                                        Assigning meaningful work.
    Introducing Employees to Others                     Introducing employees to other
                                                         employees.
                                                        Introducing employees to senior
                                                         managers/leaders.
   Source: Analysis of responses to a Treasury Inspector General for Tax Administration questionnaire.

Processes to Enhance the Onboarding Experience Are Either Not
Being Consistently Followed or Need Improvement
While the IRS has taken steps to make the new employee experience positive, managers were not
always following best practices identified in the comprehensive guidance the IRS HCO
developed. As a result, some best practices that would help new employees feel welcome and
help them become more productive were not fully implemented. For example, responses to our
questionnaire identified that more than one-quarter of the new employees we contacted stated
they were not assigned an experienced employee/mentor to orient them when they arrived and
more than 40 percent stated they did not have a computer, telephone, and e-mail account ready
when they reported to work. To assist in meeting its goal of being the best place to work in the
Government, the IRS needs to develop an agency-wide approach to improving the new employee
experience by addressing feedback from its employees and making needed improvements.
Improving onboarding processes would reduce the substantial cost of replacing employees who

                                                                                                         Page 4
                    The Onboarding Process Has Improved, but Additional Steps
                      Should Be Taken to Ensure Employees Have the Tools,
                    Resources, and Knowledge to Be Successful and Productive



leave the IRS and would help the IRS meet its mission by ensuring employees quickly become
productive.

Onboarding guidance is not being consistently followed
Based on our analysis of responses to our questionnaire, the IRS did not consistently follow
several best practices that are designed to help new employees feel welcome and help them
become more productive. Specifically, the IRS did not always perform well in practices that
require specialized attention be provided to new employees, as shown in Figure 3.
                      Figure 3: Examples of Onboarding Best Practices
                          That Were Not Implemented Consistently

         46 percent of recently hired                       40 percent of recently hired employees
         employees stated they were not                    stated that no one checked in with them on a
       contacted prior to their first day to                    regular basis to ensure that they felt
      answer any questions they may have.                   comfortable at the IRS, enjoyed their work,
                                                               and were expanding their capabilities.




         29 percent of recently hired                             26 percent of recently hired
      employees stated that the onboarding                       employees stated they were not
          experience did not accelerate                     assigned an experienced employee/mentor
     their ability to reach full productivity.                    to orient them to their new job.




Source: Analysis of 302 responses to a Treasury Inspector General for Tax Administration questionnaire that was
distributed to a total of 402 recently hired IRS employees. See Appendix IV, Figure 3, for details.


                                                                                                         Page 5
                    The Onboarding Process Has Improved, but Additional Steps
                      Should Be Taken to Ensure Employees Have the Tools,
                    Resources, and Knowledge to Be Successful and Productive



Likewise, there were similar responses to questions that dealt with providing new employees
with contact points to promote networking, such as not having the opportunity to meet with staff
from other areas of the IRS and not having a list of
contact points or an organization chart readily
                                                              In narrative responses to our
available. While nearly all of these actions were             questionnaire, recently hired
included in the manager’s guidance for onboarding              employees often expressed
employees (onboarding toolkit and website), we found        frustration that they did not have
that front-line managers from several IRS business           cubicles, telephones, access to
                                                               systems, etc., for weeks to
units were not using the guidance. As such, managers
                                                             months after arriving at the IRS.
had varying degrees of knowledge about both the
onboarding process and the resources available in the
toolkit and on the website. In many cases, managers
relied on their institutional knowledge and local
contacts when working with recently hired staff instead
of using the toolkit and website.
Additionally, we found that while the IRS HCO
website provided many suggestions to managers on
best practices for onboarding new employees, it did not
contain a checklist to give them step-by-step guidance on each item that should be completed
during the onboarding process.
Research has shown that, during their first six months on the job, a high percentage of employees
decide whether or not they will stay at an organization or begin looking for a new job. Other
research shows that the effective onboarding of new employees can improve employee retention
by as much as 25 percent.7

Improving the process for addressing employee issues could enable the IRS to
better retain newly hired employees
While the IRS has taken action to obtain feedback from recently hired employees and address
recommendations that impact the onboarding experience, a more coordinated, agency-wide
approach is needed to measure, analyze, and make improvements to the onboarding process. To
improve, the IRS must obtain feedback from new employees and take appropriate action.
Although the IRS and the Department of the Treasury use questionnaires to obtain input from
new IRS employees, these questionnaires do not address a new employee’s entire first year. In
addition, existing measures and analyses do not help the IRS identify specific onboarding areas
of concern, and feedback from managers is not being considered. Also, the IRS does not have a



7
 Partnership for Public Service, Getting On Board: A Model for Integrating and Engaging New Employees
(May 2008).
                                                                                                        Page 6
                    The Onboarding Process Has Improved, but Additional Steps
                      Should Be Taken to Ensure Employees Have the Tools,
                    Resources, and Knowledge to Be Successful and Productive



documented onboarding strategy that would help it tie together actions being taken to study and
improve the new employee experience. Specifically, we determined that:
       Questionnaires of recently hired employees do not cover the entire first year of
        employment – The Partnership for Public Service states that improving onboarding
        programs is accomplished by sustaining a strategic approach to onboarding that includes
        measuring results and soliciting and using feedback. The activities associated with this
        strategic approach should go beyond the first weeks or months. These activities should
        be sustained throughout the employee’s first year.
        While the IRS HCO obtains feedback from new employees, it does not obtain feedback
        after a new employee’s first 90 days. The IRS uses a Department of the Treasury
        questionnaire8 to obtain employee feedback that covers only the first 90 days a new
        employee is at work. If the IRS does not obtain specific feedback for the entire first year
        of work, it may not be aware of improvements that are needed and may not take
        corrective actions that would lead to better retention of recently hired employees. For
        example, in responses to our questionnaire, we determined that some best practices that
        should be followed subsequent to the employee’s first 90 days were not being
        consistently followed.9
       More detailed measures and analyses are needed to identify onboarding practices
        that need improvement – The measures used to
        evaluate onboarding have evolved over the past
                                                                Additional analyses of
        few years. Initially, the IRS HCO used statistics
                                                          onboarding data would allow the
        related to the percentage of employees who left    IRS to leverage best practices
        within their first year of being employed by the   from specific segments of the
        IRS. Starting in the third quarter of Fiscal           IRS that have developed
        Year 2011, the IRS HCO began using an               processes that are leading to
        Onboarding Satisfaction Index which is based on      a more positive onboarding
                                                             experience for recent hires.
        new employees’ replies to 25 questions from a
        new employee questionnaire. This measure is an
        improvement over using the percentage of
        employees who leave within the first year
        because it is more closely aligned with specific
        actions being taken to improve onboarding.
        While helpful as overall measures, neither the
        percentage of employees leaving within their
        first year nor the Onboarding Satisfaction Index

8
  Starting in February 2010, the IRS discontinued its questionnaires of new employees. After that time, the
Department of the Treasury assumed the process of surveying new employees. In turn, it forwards the questionnaire
results to IRS staff.
9
  See Appendix IV, Figure 2, for additional information.
                                                                                                         Page 7
                        The Onboarding Process Has Improved, but Additional Steps
                          Should Be Taken to Ensure Employees Have the Tools,
                        Resources, and Knowledge to Be Successful and Productive



           measures had the necessary details to identify specific areas of concern that employees
           identified in their responses to our questionnaire.
           In addition to developing overall onboarding measures, the IRS has performed
           three different analyses of new employee attrition. However, none of these analyses
           included sufficient data by position and were also insufficient for identifying the cause
           for areas that resulted in low scores to questions on the new employee questionnaire.
           Analyzing information by organization, job position, employee location, etc., would
           enable the IRS to identify segments of the IRS that may have implemented specific
           processes that allow them to more consistently create a positive onboarding experience
           for its employees. For example, in reviewing responses to our questionnaire, it is clear
           that some organizations within the IRS have implemented best practices better than
           others. For example, 92 percent of recently hired employees in the Large Business and
           International Division stated that they had a computer, telephone, and e-mail account
           ready when they reported to the IRS. However, only 49 percent of recently hired
           employees in the Modernization and Information Technology Services organization
           stated this key equipment was available when they reported.10 Also, 92 percent of
           recently hired revenue agents stated that performance expectations and individual
           development goals were established upon reporting to the IRS, whereas only 79 percent
           of customer service representatives believed this to be true in their experience.
          Feedback from managers of recently hired employees is not being considered –
           While the IRS and the Department of the Treasury requests feedback from recently hired
           employees, managers of recently hired employees we spoke with indicated that no one
           requested feedback from them regarding onboarding practices. We believe this occurred
           because early efforts to improve the onboarding experience focused on the employee’s
           experience. However, the IRS should expand the feedback it is receiving to include
           managerial feedback. This would give the IRS additional insight into the onboarding
           process. Feedback from managers may identify barriers to implementing onboarding best
           practices or internal processes that are making it difficult to ensure the most positive
           experience for new employees.
          The IRS does not have a documented onboarding strategy for improving the new
           employee experience – IRS officials informed us that they have formed groups to
           research various issues impacting recently hired employees. For example, we were
           informed of a group formed with representatives from throughout the IRS that were
           assessing attrition, retention, and onboarding. While we could see actions that were
           being taken by the group, it was difficult to determine the purpose and goals of the group
           due to the lack of a charter and a recent changeover in leadership.



10
     See Appendix IV, Figure 3, for additional information.
                                                                                               Page 8
                 The Onboarding Process Has Improved, but Additional Steps
                   Should Be Taken to Ensure Employees Have the Tools,
                 Resources, and Knowledge to Be Successful and Productive



       In addition to the agency-wide group, individual IRS business units had projects
       underway dealing with subjects such as attrition patterns and the cause of employees not
       attending orientation sessions. IRS officials
       informed us that the scope of the projects
       varied based on individual business unit                 Similar to our findings, an
       needs. Even though the teams were led by           employee-led    project recommended
                                                              in 2010 that the IRS develop a
       individual business units, we believe some of      corporate strategy for retention, with
       the results from these projects could be of        a “One-IRS Approach” for identifying
       value to the entire IRS. For example,             and retaining high-potential employees
       one business unit project recommended that              beyond the first 12 months.
       information sharing be increased across all
       IRS organizations to leverage best practices
       and promote a collaborative work environment. HCO officials stated that they had
       reviewed and discussed the results of individual projects. However, because the projects
       were not established with an agency-wide focus, we could not clearly identify a person or
       group charged with overall responsibility for tracking the progress of onboarding projects
       or determining whether individual projects could assist the IRS overall.
       A long-term unified onboarding strategy is needed to improve the onboarding process for
       its employees. Without a unified strategy, the important work being conducted
       throughout the IRS may not be analyzed for applicability throughout the IRS and the
       opportunity to learn from the work of others could be lost.

Recommendation
Recommendation 1: To further improve the onboarding process and achieve the IRS’s goal
of making the IRS the best place to work in Government, we recommend that the IRS Human
Capital Officer develop an agency-wide onboarding strategy. The strategy should include:
      Goals for improving the onboarding process.
      An agency-wide process for planning, coordinating, and addressing actions being taken
       across the IRS on onboarding topics.
      A checklist with step-by-step guidance on each item that should be completed during the
       onboarding process requiring managers to complete the checklist acknowledging that the
       items were addressed.
      A plan to promote the use of the onboarding toolkit and website to managers who are
       assigned newly hired employees.
      A process to collect feedback from managers on how the onboarding process could be
       improved.


                                                                                          Page 9
              The Onboarding Process Has Improved, but Additional Steps
                Should Be Taken to Ensure Employees Have the Tools,
              Resources, and Knowledge to Be Successful and Productive



   Additional measures and analyses to evaluate the onboarding process, including a means
    of identifying specific areas of employee concern for their first year of employment.
    Management’s Response: IRS management agrees with the recommendation to
    enhance the existing onboarding strategy. Efforts are underway to convene an IRS team
    with business division representatives to develop a corporate IRS onboarding strategy
    that will include: goals for improving the onboarding process; a documented IRS-wide
    process for planning, coordinating, and addressing actions being taken across the IRS
    with respect to onboarding topics; a link with IRS and business divisions’ retention
    strategies to more effectively promote existing tools for managers; a communication plan
    directed at managers to improve awareness of the existing checklist, guidance, and other
    tools; increased support to managers to ensure all critical onboarding items are addressed;
    a corporate marketing plan to promote the use of the onboarding toolkit and the website
    on the IRS Intranet that assists managers who are assigned new employees; a process to
    collect feedback from managers on how the onboarding process could be improved; and
    additional measures and analyses to evaluate the entire onboarding process, including a
    means of identifying specific areas of employee concern during the first year of
    employment.
    Office of Audit Comments: While IRS management agreed with our recommendation,
    they also stated in their overall comments that they did not agree that conclusions could be
    drawn based on the sample size of managers we surveyed. However, management’s
    response did not appear to consider that we selected a targeted sample. Only managers
    who had new employees hired between July 1, 2010, and June 30, 2011, were considered
    for selection. After interviewing the first 15 managers and finding that none of them
    were aware of or were using the information on IRS HCO’s onboarding website
    (including the onboarding toolkit that was developed to guide managers with newly hired
    employees), we concluded that some of the actions recommended in the onboarding
    toolkit may not have been performed because managers of newly hired employees were
    unaware the toolkit existed and were not required to use it. Given that there was no
    variance in the responses, we believe the results of our sample provide a sufficient basis
    for our conclusion.




                                                                                        Page 10
                     The Onboarding Process Has Improved, but Additional Steps
                       Should Be Taken to Ensure Employees Have the Tools,
                     Resources, and Knowledge to Be Successful and Productive



                                                                                                   Appendix I


          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS’s onboarding program
was appropriately integrating new employees for positions in mission-critical occupations1 into
the IRS workforce to become productive employees as quickly as possible. To accomplish this
objective, we conducted the following tests:
I.       Determined whether the IRS had a system in place to ensure the onboarding process was
         comprehensive, integrated, and based on the human capital needs of the IRS and whether
         all components of the process were coordinated to assimilate new employees into the
         IRS workforce.
         A. Identified existing IRS policies and procedures and compared them with the
            Partnership for Public Service’s strategic onboarding model2 and the Office of
            Personnel Management’s End-to-End Hiring roadmap3 and determined whether all
            key components of the model were included.
         B. Determined whether the HCO’s procedures integrated all components of the
            onboarding model into its work processes to ensure employees have all needed
            information, workspace, and equipment when they report for duty.
             1. Interviewed a judgmental4 sample of 15 business unit managers and reviewed
                existing procedures.
             2. Interviewed HCO management to determine whether onboarding procedures and
                guidelines were available to IRS business managers and employees when new
                staff reported for duty.




1
  Mission-critical occupations are those few occupations that comprise the unique core competencies of the IRS and
have the greatest direct impact on the agency’s ability to meet its mission.
2
  Partnership for Public Service, Getting On Board: A Model for Integrating and Engaging New Employees
(May 2008). The Partnership for Public Service is a nonpartisan, nonprofit organization that works to revitalize the
Federal Government by inspiring a new generation to serve and by transforming the way Government works.
3
  Office of Personnel Management, End-to-End Hiring Initiative (Sept. 2008).
4
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
We used a judgmental sample because we did not expect to make any projections of the sample results over the
entire population.
                                                                                                           Page 11
                     The Onboarding Process Has Improved, but Additional Steps
                       Should Be Taken to Ensure Employees Have the Tools,
                     Resources, and Knowledge to Be Successful and Productive



II.     Determined, from the new employee’s standpoint, whether onboarding activities
        appropriately integrated new employees into their positions and provided them with the
        tools, resources, and knowledge to become successful and productive.
        A. Used the Data Center Warehouse5 to obtain Treasury Integrated Management
           Information System information to identify 3,161 employees who were in
           mission-critical occupation positions and started working for the IRS between
           July 1, 2010, and June 30, 2011. We assessed the reliability of the data by ensuring
           that all employees selected as part of our sample in Step II.B. had a valid IRS e-mail
           account. The data appeared to be reasonably accurate for the purposes of this audit,
           and we performed no additional data validity tests.
        B. Developed and distributed a questionnaire to a judgmental sample of
           402 (12.7 percent) of the employees identified in Step II.A. and obtained feedback on
           the following phases of their onboarding experience, as well as any areas where it
           could be improved:
             1. Prior to reporting for their first day of work.
             2. When reporting for duty on their first day.
             3. During their first week of employment with the IRS.
             4. During their first 90 days of employment.
             5. During their first year of employment.
             6. For the overall onboarding process, any specific components of the process that
                employees felt were exceptionally positive or could be improved.
III.    Determined whether there was a structured approach to measure the benefits and
        outcomes of the IRS’s onboarding program.
        A. Identified existing measures the HCO had in place to monitor and gauge the
           program’s performance.
        B. Interviewed HCO management to determine whether there was a process in place for
           using employees’ responses to onboarding questionnaires to initiate improvements in
           the onboarding program.
        C. Determined whether HCO management was obtaining and addressing feedback from
           managers about the onboarding process.



5
 A collection of IRS databases containing various types of taxpayer account information that is maintained by the
Treasury Inspector General for Tax Administration for the purpose of analyzing data for ongoing audits.
                                                                                                          Page 12
                 The Onboarding Process Has Improved, but Additional Steps
                   Should Be Taken to Ensure Employees Have the Tools,
                 Resources, and Knowledge to Be Successful and Productive



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS HCO’s policies, procedures, and
practices for integrating and assimilating new employees into the IRS workforce. We evaluated
these controls by interviewing management, distributing a comprehensive questionnaire to
recently hired employees to obtain their feedback on their onboarding experience, and evaluating
feedback mechanisms the IRS HCO used to gauge the overall success of the onboarding
program.




                                                                                        Page 13
                The Onboarding Process Has Improved, but Additional Steps
                  Should Be Taken to Ensure Employees Have the Tools,
                Resources, and Knowledge to Be Successful and Productive



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
Steve T. Myers, Lead Auditor
Margaret A. Anketell, Auditor
Brett C. Thornock, Audit Evaluator




                                                                                  Page 14
                The Onboarding Process Has Improved, but Additional Steps
                  Should Be Taken to Ensure Employees Have the Tools,
                Resources, and Knowledge to Be Successful and Productive



                                                                 Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Technology Officer OS:CTO
IRS Human Capital Officer OS:HC
Deputy IRS Human Capital Officer OS:HC
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: IRS Human Capital Officer OS:HC




                                                                       Page 15
                        The Onboarding Process Has Improved, but Additional Steps
                          Should Be Taken to Ensure Employees Have the Tools,
                        Resources, and Knowledge to Be Successful and Productive



                                                                                          Appendix IV

       Analyses of Recently Hired Employee Responses
           to a Treasury Inspector General for Tax
                 Administration Questionnaire

We administered a questionnaire to 402 IRS employees hired between July 1, 2010, and
June 30, 2011, and received 302 responses (a 75 percent response rate). All questions related to
an onboarding best practice and all questions were worded so that a positive response from a
recently hired employee would indicate that the employee believes an onboarding best practice
identified in each question was followed by the IRS.
Figure 1 shows the legend for viewing employee responses to the questionnaire. Figure 2 shows
the responses by onboarding phase (prior to reporting for their first day of work, when reporting
for duty on their first day, first week of employment with the IRS, first 90 days of employment,
and first year of employment). Figure 3 shows the responses by business unit/functional office
(Small Business/Self-Employed Division, Large Business and International Division,
Modernization and Information Technology Services organization, and Wage and Investment
Division). Figure 4 shows the responses by position (revenue agent, tax examiner, customer
service representative, and information technology specialist).
       Figure 1: Legend for Viewing Responses to the Treasury Inspector General
           for Tax Administration Questionnaire of Recently Hired Employees

                                          80 percent1 or more of recently hired employees responded
                                          positively to the question. In our opinion, this means the IRS
                                         has implemented the best practice identified in the question
                                          fairly consistently. 
                                          65–79.9 percent of employees responded positively to the
                                          question. In our opinion, this means the IRS should consider
                                         taking actions to ensure a best practice is more consistently
                                          implemented. 
                                          Less than 65 percent of employees responded positively to the
                                         question. In our opinion, this means the IRS should take
                                          action to ensure a best practice is more consistently followed. 
Source: Treasury Inspector General for Tax Administration.


1
    Percentages are rounded to the nearest percent.
                                                                                                   Page 16
                    The Onboarding Process Has Improved, but Additional Steps
                      Should Be Taken to Ensure Employees Have the Tools,
                    Resources, and Knowledge to Be Successful and Productive



  Figure 2: Summary of Responses to the Treasury Inspector General for Tax
Administration Questionnaire of Recently Hired Employees by Onboarding Phase
                            Before First Day – (Begins After Employee Accepts Job)
Were you sent a letter or packet welcoming you to the IRS?                                                
Did you receive information about the IRS and your new position?                                          
If requested, did you review and complete employment-related paperwork prior to the first day?            
Prior to your first day, were you contacted by someone from the IRS who provided you an
opportunity to ask questions and who explained your new job expectations?                                 
Was someone (coach/mentor/manager) assigned to answer additional questions that you may have?            
Did you receive instructions and information on reporting for duty your first day, e.g., where, when,
whom to contact, and building access?
                                                                                                          
                        First Day/Orientation (Report Date and Orientation Activities)
Upon reporting to work, did the IRS have your computer, telephone, and e-mail account ready?              
When you reported to work, was your workspace assigned and available?                                     
Were you provided with some form of personalized welcome, e.g., a small agency-related item?              
Was the IRS’s vision and mission described to you?                                                        
If the IRS’s vision and mission were described to you, did someone explain the importance of your
new job and how your new job assists in accomplishing the IRS’s vision and mission?
                                                                                                          
Were you assigned an experienced employee/mentor to orient you to your new job?                          
Did a manager or someone in authority welcome you, either in person or by other means, e.g.,
telephone/e-mail?
                                                                                                          
On your first day, were you asked by someone in your office to eat lunch with him or her?                 
Were agency benefits and policies explained to you?                                                       
Were you provided with sufficient information to complete all necessary paperwork and
security-related items?
                                                                                                          
Was there a designated person you could contact for assistance?                                           
             First Week of Employment (First Five Business Days on Job, Excluding Orientation)
Was someone assigned to assist you with completing administrative tasks, e.g., time reports, time and
attendance, and travel vouchers?
                                                                                                          
During your first week, were your job roles and responsibilities clearly communicated to you?            
Did you receive office-specific information about alternative work schedules, the timekeeping
system, and security for entering the office?
                                                                                                          
Did you receive training on applicable laws that impact your position, e.g., use of personally
identifiable taxpayer information?
                                                                                                          


                                                                                                        Page 17
                     The Onboarding Process Has Improved, but Additional Steps
                       Should Be Taken to Ensure Employees Have the Tools,
                     Resources, and Knowledge to Be Successful and Productive



 During your first week, were you given meaningful work, either training or assignments related to
 your new job?
                                                                                                             
 Did you meet with a senior manager/leader in your office?                                                   
 Were you introduced to the other employees and senior management/leaders in your office?                    
 Were you provided an organizational chart and did the chart list key staff members?                         
 Did someone provide you a list of contacts who can address your questions on a variety of issues?           
 Were you asked to provide feedback about the orientation program?                                          
             First 90 Days of Employment (First Three Months, Excluding First Five Days on Job)
 Were performance expectations and individual development goals established?                                
 Did management frequently provide you with feedback?                                                       
 Was this feedback early in the performance evaluation process?                                             
 Did you receive training/guidance/instruction to help you understand your office’s internal systems,
 general operating practices, and other information or skills required in the performance of your job?
                                                                                                             
 If received, was the above-mentioned training beneficial?                                                   
 Have you been able to meet with staff from other parts of the IRS who work/interact with your area
 on a regular basis?
                                                                                                            
 Was there someone that checked with you on a regular basis to ensure that you felt comfortable at the
 IRS, enjoyed your work, and were expanding your capabilities?                                               
 Was a survey conducted by the Human Capital Office to address any issues that surfaced during this
 time?                                                                                                       
             First Year of Employment (Time Between First Three Months and End of First Year)
 During this phase, did you receive training to build your competencies and fill any skill gaps that you
 may have had?
                                                                                                             
 Do you feel this training provided the tools and knowledge to become successful and productive?             
 Did management formally assess your performance by providing constructive feedback?                         
 In addition to the formal performance assessments, did management informally meet with you to
 discuss your performance?
                                                                                                            
 On your one-year anniversary, did you receive a congratulatory e-mail or letter from a senior
 manager within your office?                                                                                 
 Do you feel that the onboarding experience accelerated your ability to reach full productivity?            
Source: Responses to a Treasury Inspector General for Tax Administration questionnaire of recently hired
IRS employees.




                                                                                                           Page 18
                         The Onboarding Process Has Improved, but Additional Steps
                           Should Be Taken to Ensure Employees Have the Tools,
                         Resources, and Knowledge to Be Successful and Productive



       Figure 3: Summary of Responses to the Treasury Inspector General for Tax
          Administration Questionnaire of Recently Hired Employees: Results
        by Business Unit/Functional Office, From Most Positive to Most Negative
                                                                        IRS
    Question                                                           Overall   SB/SE2   LB&I3   MITS4    W&I5
    Did you receive instructions and information on reporting for       96%       96%     93%     97%       97%
    duty your first day, e.g., where, when, whom to contact, and
    building access?                                                                                     

    If requested, did you review and complete employment-related        96%       97%     95%     98%       93%
    paperwork prior to the first day?                                                                    
    Was the IRS’s vision and mission described to you?                  95%       93%     95%     96%       97%
                                                                                                         
    Did you receive training on applicable laws that impact your        94%       96%     95%     93%       93%
    position, e.g., use of personally identifiable taxpayer
    information?                                                                                         

    Were you provided with sufficient information to complete all       93%       94%     95%     93%       90%
    necessary paperwork and security related items?                                                      
    If received, was the above-mentioned training [guidance to
    help you understand your office’s internal systems, general         91%       91%     95%     94%       87%
    operating practices, and other information or skills required in                                     
    the performance of your job] beneficial?
    Did a manager or someone in authority welcome you, either in        91%       93%     97%     91%       87%
    person or by other means, e.g., telephone/e-mail?                                                    
    Were you sent a letter or packet welcoming you to the IRS?          91%       94%     93%     93%       84%
                                                                                                         
    If the IRS’s vision and mission were described to you, did          89%       93%     92%     83%       93%
    someone explain the importance of your new job and how your
    new job assists in accomplishing the IRS’s vision and mission?                                       

    Were agency benefits and policies explained to you?                 89%       89%     88%     88%       91%
                                                                                                         
    Did management formally assess your performance by                  88%       88%     95%     90%       84%
    providing constructive feedback?                                                                     




2
  Small Business/Self-Employed Division.
3
  Large Business and International Division.
4
  Modernization and Information Technology Services.
5
  Wage and Investment Division.
                                                                                                          Page 19
                     The Onboarding Process Has Improved, but Additional Steps
                       Should Be Taken to Ensure Employees Have the Tools,
                     Resources, and Knowledge to Be Successful and Productive



                                                                    IRS
Question                                                           Overall   SB/SE2   LB&I3   MITS4    W&I5
Was someone assigned to assist you with completing                  88%       89%     98%     84%       86%
administrative tasks, e.g., time reports, time and attendance,
and travel vouchers?                                                                                 

Did you receive information about the IRS and your new              88%       92%     90%     86%       85%
position?                                                                                            
Were you introduced to the other employees and senior               87%       90%     97%     85%       82%
management/leaders in your office?                                                                   
Did you receive training/guidance/instruction to help you
understand your office’s internal systems, general operating        87%       93%     92%     80%       87%
practices, and other information or skills required in the                                           
performance of your job?
Do you feel this training [training to build your competencies      86%       93%     89%     86%       80%
and fill any skill gaps] provided the tools and knowledge to
become successful and productive?                                                                    

Were performance expectations and individual development            86%       88%     93%     86%       80%
goals established?                                                                                   
During your first week, were you given meaningful work,             85%       90%     90%     75%       91%
either training or assignments related to your new job?                                              
During this phase [first year of employment], did you receive       85%       90%     90%     81%       82%
training to build your competencies and fill any skill gaps that
you may have had?                                                                                    

Did you meet with a senior manager/leader in your office?           83%       89%     85%     83%       78%
                                                                                                     
Was there a designated person you could contact for assistance      82%       84%     83%     82%       80%
[to complete all necessary paperwork and security-related items
on your first day]?                                                                                  

Did you receive office-specific information about alternative       81%       82%     95%     80%       76%
work schedules, the timekeeping system, and security for
entering the office?                                                                                 

When you reported to work, was your workspace assigned and          81%       89%     83%     80%       74%
available?                                                                                           
During your first week, were your job roles and responsibilities    79%       84%     90%     67%       83%
clearly communicated to you?                                                                         
Was this feedback [performance feedback] early in the               77%       86%     77%     74%       73%
performance evaluation process?                                                                      



                                                                                                      Page 20
                     The Onboarding Process Has Improved, but Additional Steps
                       Should Be Taken to Ensure Employees Have the Tools,
                     Resources, and Knowledge to Be Successful and Productive



                                                                    IRS
Question                                                           Overall   SB/SE2   LB&I3   MITS4    W&I5
Did management frequently provide you with feedback [during         77%       84%     79%     74%       73%
the first 90 days of employment]?                                                                    
Were you asked to provide feedback about the orientation            75%       81%     69%     75%       72%
program?                                                                                             
In addition to the formal performance assessments, did              74%       80%     89%     71%       66%
management informally meet with you to discuss your
performance?                                                                                         

Were you assigned an experienced employee/mentor to orient          74%       87%     84%     69%       63%
you to your new job?
                                                                                                     
Do you feel that the onboarding experience accelerated your         71%       79%     77%     76%       54%
ability to reach full productivity?
                                                                                                     
Have you been able to meet with staff from other parts of the       67%       75%     76%     76%       48%
IRS who work/interact with your area on a regular basis?
                                                                                                     
Was someone (coach/mentor/manager) assigned to answer               67%       74%     71%     68%       59%
additional questions that you may have [before first day]?
                                                                                                     
Were you provided with some form of personalized welcome,           62%       65%     74%     56%       60%
e.g., a small agency-related item?
                                                                                                     
Did someone provide you a list of contacts who can address          61%       62%     55%     64%       61%
your questions on a variety of issues [first week of
employment]?                                                                                         
Was there someone that checked with you on a regular basis to       59%       67%     77%     58%       47%
ensure that you felt comfortable at the IRS, enjoyed your work,
and were expanding your capabilities?                                                                
Upon reporting to work, did the IRS have your computer,             59%       71%     92%     49%       46%
telephone, and e-mail account ready?
                                                                                                     
On your one-year anniversary, did you receive a congratulatory      58%       65%     78%     53%       43%
e-mail or letter from a senior manager within your office?
                                                                                                     
Prior to your first day, were you contacted by someone from         54%       61%     68%     49%       48%
the IRS who provided you an opportunity to ask questions and
who explained your new job expectations?                                                             
Was a survey conducted by the Human Capital Office to               53%       59%     61%     57%       41%
address any issues that surfaced during this time [first 90 days
of employment]?                                                                                      



                                                                                                      Page 21
                     The Onboarding Process Has Improved, but Additional Steps
                       Should Be Taken to Ensure Employees Have the Tools,
                     Resources, and Knowledge to Be Successful and Productive



                                                                   IRS
 Question                                                         Overall   SB/SE2    LB&I3     MITS4       W&I5
 Were you provided an organizational chart and did the chart       50%       51%       54%       57%         39%
 list key staff members?
                                                                                                          
 On your first day, were you asked by someone in your office to    33%       47%       53%       26%         22%
 eat lunch with him or her?                                                                               
Source: Responses to a Treasury Inspector General for Tax Administration questionnaire of recently hired
IRS employees.




                                                                                                           Page 22
                     The Onboarding Process Has Improved, but Additional Steps
                       Should Be Taken to Ensure Employees Have the Tools,
                     Resources, and Knowledge to Be Successful and Productive



    Figure 4: Summary of Responses to the Treasury Inspector General for Tax
    Administration Questionnaire of Recently Hired Employees by Job Position
                                           IRS
                                          Overall                   Customer    Information    Tax
Before First Day (Begins After            Percent Revenue  Tax       Service     Technology Compliance
Employee Accepts Job)                     Positive Agent Examiner Representative Specialist  Officer6
Were you sent a letter or packet           91%        94%       73%            88%             93%          100%
welcoming you to the IRS?                                                                                
Did you receive information about the      88%        91%       78%            88%             86%          100%
IRS and your new position?                                                                               
If requested, did you review and           96%        96%       92%            94%             98%          100%
complete employment-related
paperwork prior to the first day?                                                                        

Prior to your first day, were you
contacted by someone from the IRS          54%        66%       56%            46%             49%           50%
who provided you an opportunity to
ask questions and who explained your                                                                     
new job expectations?
Was someone (coach/mentor/manager)         67%        72%       56%            63%             68%           88%
assigned to answer additional questions
that you may have?                                                                                       

Did you receive instructions and
information on reporting for duty your     96%        96%       96%            96%             97%           88%
first day, e.g., where, when, whom to                                                                    
contact, and building access?
                                          Overall                   Customer    Information    Tax
First Day/Orientation (Report Date        Percent Revenue  Tax       Service     Technology Compliance
and Orientation Activities)               Positive Agent Examiner Representative Specialist   Officer
Upon reporting to work, did the IRS        59%        82%       44%            49%             49%           75%
have your computer, telephone, and
e-mail account ready?                                                                                    

When you reported to work was your         81%        86%       81%            73%             80%          100%
workspace assigned and available?                                                                        
Were you provided with some form of        62%        71%       48%            61%             56%           88%
personalized welcome, e.g., a small
agency-related item?                                                                                     




6
  Because there were only eight replies to the Treasury Inspector General for Tax Administration questionnaire for
this position, these results may not be reflective of the entire population of newly hired Tax Compliance Officers.
                                                                                                           Page 23
                      The Onboarding Process Has Improved, but Additional Steps
                        Should Be Taken to Ensure Employees Have the Tools,
                      Resources, and Knowledge to Be Successful and Productive



Were the IRS’s vision and mission           95%     94%      92%        96%          96%       100%
described to you?                                                                           
If the IRS’s vision and mission were
described to you, did someone explain
the importance of your new job and          89%     92%      85%        96%          83%       100%
how your new job assists in                                                                 
accomplishing the IRS’s vision and
mission?
Were you assigned an experienced            74%     88%      62%        65%          69%        88%
employee/mentor to orient you to your
new job?                                                                                    

Did a manager or someone in
authority welcome you, either in            91%     95%      96%        85%          91%        88%
person or by other means, e.g.,                                                             
telephone/e-mail?
On your first day, were you asked by        33%     51%      12%        26%          26%        67%
someone in your office to eat lunch
with him or her?                                                                           

Were agency benefits and policies           89%     92%      89%        89%          88%        63%
explained to you?
                                                                                            
Were you provided with sufficient           93%     96%      93%        90%          93%        75%
information to complete all necessary
paperwork and security-related items?                                                      

Was there a designated person you           82%     87%      70%        82%          82%        71%
could contact for assistance?                                                              
First Week of Employment (First            Overall                   Customer    Information    Tax
Five Business Days on Job,                 Percent Revenue  Tax       Service     Technology Compliance
Excluding Orientation)                     Positive Agent Examiner Representative Specialist   Officer
Was someone assigned to assist you
with completing administrative tasks,       88%     94%      89%        84%          84%        88%
e.g., time reports, time and attendance,                                                    
and travel vouchers?
During your first week, were your job       79%     86%      85%        81%          67%       100%
roles and responsibilities clearly
communicated to you?                                                                        

Did you receive office-specific
information about alternative work          81%     92%      67%        77%          80%        63%
schedules, the timekeeping system,                                                          
and security for entering the office?




                                                                                               Page 24
                     The Onboarding Process Has Improved, but Additional Steps
                       Should Be Taken to Ensure Employees Have the Tools,
                     Resources, and Knowledge to Be Successful and Productive



Did you receive training on applicable
laws that impact your position, e.g.,      94%     97%      88%        95%          93%        88%
use of personally identifiable taxpayer                                                    
information?
During your first week, were you
given meaningful work, either training     85%     89%      89%        92%          75%       100%
or assignments related to your new                                                         
job?
Did you meet with a senior                 83%     88%      88%        74%          83%       100%
manager/leader in your office?                                                             
Were you introduced to the other           87%     95%      85%        79%          85%       100%
employees and senior management/
leaders in your office?                                                                    

Were you provided an organizational        50%     55%      37%        39%          57%        57%
chart and did the chart list key staff
members?                                                                                   
Did someone provide you a list of          61%     60%      52%        62%          64%        71%
contacts who can address your
questions on a variety of issues?                                                         

Were you asked to provide feedback         75%     79%      63%        74%          75%        71%
about the orientation program?                                                            
First 90 Days of Employment               Overall                   Customer    Information    Tax
(First Three Months, Excluding            Percent Revenue  Tax       Service     Technology Compliance
First Five Days on Job)                   Positive Agent Examiner Representative Specialist   Officer
Were performance expectations and          86%     92%      81%        79%          86%        88%
individual development goals
established?                                                                               

Did management frequently provide          77%     82%      67%        78%          74%        88%
you with feedback?                                                                         
Was this feedback early in the             77%     82%      64%        78%          74%        88%
performance evaluation process?                                                            
Did you receive training/guidance/
instruction to help you understand
your office’s internal systems, general    87%     91%      93%        88%          80%       100%
operating practices, and other                                                             
information or skills required in the
performance of your job?
If received, was the above-mentioned       91%     93%      88%        88%          94%        88%
training beneficial?                                                                       




                                                                                              Page 25
                      The Onboarding Process Has Improved, but Additional Steps
                        Should Be Taken to Ensure Employees Have the Tools,
                      Resources, and Knowledge to Be Successful and Productive



 Have you been able to meet with staff
 from other parts of the IRS who           67%     80%        44%          49%            76%          75%
 work/interact with your area on a                                                                 
 regular basis?
 Was there someone that checked with
 you on a regular basis to ensure that     59%     73%        48%          48%            58%          63%
 you felt comfortable at the IRS,
 enjoyed your work, and were                                                                       
 expanding your capabilities?
 Was a survey conducted by the             53%     67%        29%          43%            57%          43%
 Human Capital Office to address any
 issues that surfaced during this time?                                                            
 First Year of Employment (Time           Overall                   Customer    Information    Tax
 Between First Three Months and           Percent Revenue  Tax       Service     Technology Compliance
 End of First Year)                       Positive Agent Examiner Representative Specialist   Officer
 During this phase, did you receive
 training to build your competencies       85%     90%        80%          85%            81%          88%
 and fill any skill gaps that you may                                                              
 have had?
 Do you feel this training provided the    86%     94%        70%          85%            86%          75%
 tools and knowledge to become
 successful and productive?                                                                        

 Did management formally assess your       88%     93%        76%          87%            90%          75%
 performance by providing
 constructive feedback?                                                                            

 In addition to the formal performance
 assessments, did management               74%     86%        57%          69%            71%          75%
 informally meet with you to discuss                                                               
 your performance?
 On your one-year anniversary, did you
 receive a congratulatory e-mail or        58%     75%        47%          40%            53%          75%
 letter from a senior manager within                                                               
 your office?
 Do you feel that the onboarding          71%       82%      56%            54%             76%          75%
 experience accelerated your ability to
 reach full productivity?                                                                            
Source: Responses to a Treasury Inspector General for Tax Administration questionnaire of recently hired
IRS employees.




                                                                                                      Page 26
    The Onboarding Process Has Improved, but Additional Steps
      Should Be Taken to Ensure Employees Have the Tools,
    Resources, and Knowledge to Be Successful and Productive



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 27
The Onboarding Process Has Improved, but Additional Steps
  Should Be Taken to Ensure Employees Have the Tools,
Resources, and Knowledge to Be Successful and Productive




                                                     Page 28
The Onboarding Process Has Improved, but Additional Steps
  Should Be Taken to Ensure Employees Have the Tools,
Resources, and Knowledge to Be Successful and Productive




                                                     Page 29
